K

F,

/

) —

No.

5 08

QJS Q

■'5550-0 8 C
IN THE
''5'- ’

? it sL^Mgif f5

SUPREME COURT OF THE UNITED STATES

ALEX ALBERTO CASTRO — PETITIONER
(Your name)
vs.
UNITED STATES OF AMERICA — RRESPONDENT

FILED
AUG 2 5 2020
OFFICE OF THE CLERK
RllPRFME COURT. U.S.

ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)

PETITION FOR WRIT OF CERTIORARI

Alex Castro. Reg. No. 56769-112
(Your Name)
FCI Milan
P.O. Box 1000
(Address)
Milan. MI 481 GO
(City, State, Zip Code)
I am in the custody of Federal Bureau of Prison and
therefore do not have a phone number. The main number
for FCI Milan is 734-439 1511.
(Phone Number)

.5

QUESTION PRESENTED

1.

Whether the Court of Appeals erred in affirming the District Court’s

Order denying the defense motion to suppress wiretaps.

n.

LIST OF PARTIES

[X] AH parties appear in the caption of the case on the cover page.
f ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
None

m.

TABLE OF CONTENTS
QUESTION PRESENTED

ii

LIST OF PARTIES

m

RELATED CASES

m

TABLE OF CONTENTS

IV

INDEX TO APENDICIES

iv

OPINIONS BELOW

1

JURISDICTION.

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

2

REASONS FOR GRANTING THE WRIT

3

CONCLUSION

3

INDEX TO APPENDICES

APPENDIX A

Sixth Circuit Court- of Appeals Opinion

APPENDIX B

18 IJ.S.C. 2518

iv.

.1

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[X] For cases from federal courtsThe opinion of the United States court of appeals appears at Appendix A_to the
petition and is
or,
[ ] reported at
[X] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix,
the petition and is
f ] reported at
> or,
1 ] has been designated for publication but is not yet reported; or,
[] is unpublished.
[ ] For cases from state courtsThe opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
> or,
I ] has been designated for publicat ion but is not yet reported; or,
l ] is unpublished.
The opinion of the__
appears at Appendix

court
to the petition and is

, or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ 3 is unpublished.

1.

to

«.*

JURISDICTION
[X] For cases from federal courts:
The dale on which the United States Court of Appeals decided my case
was June 3. 2020______
[X] No petition for rehearing was timely filed in my case.
[1 A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:_____________
, and a copy of the
order denying rehearing appearsat, Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) on
(date)
in Application No.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(l).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
18 U.S.C. §2518
U.S.S.G. S3C1.1
STATEMENT OF THE CASE
I was indicted in the United States District Court for the Western District of
Michigan and charged with Conspiracy to Distribute Controlled Substances. The
government’s evidence against me included intercepted communication obtained
through a wiretap. Prior to trial, through counsel, I moved to suppress the
intercepted communications arguing that there was no necessity for the wiretap.
My motion to suppress was denied by the district court. The case proceeded to trial.
At trial the government introduced evidence obtained from the wiretaps and I was
con victed. 1 was sentenced to the Bureau of Prisons for a term of 504 months.

2.

On appeal, 1 challenged the district court’s order denying my motion to
suppress the wiretap. The Sixth Circuit affirmed.
REASONS FOR GRANTING THE PETITION
18 U.S.C. §258l(l)(e) provides that a wiretap cannot be approved unless
“other investigative procedures have been tried and failed or ... they reasonably
appear to be unlikely to succeed if tried or to be too dangerous.” This is known as
the “necessity requirement.” In this case the necessity requirement was not
satisfied. The district court erred by failing to suppress the wiretaps because the
government failed to establish necessity. The Court of Appeals erred in affirming
the district court’s order.

CONCLUSION
I respectfully request that this petition for a writ of certiorari should be granted.
Respectfully submitted,
x y

Alex Castro
Date:

3.

